  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




    GEORGIA DID NOT ALWAYS
ACCURATELY REPORT AND REFUND THE
   FEDERAL SHARE OF MEDICAID
 COLLECTIONS FOR CALENDAR YEARS
       2008 THROUGH 2011


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General

                                                          April 2014
                                                        A-04-12-00085
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 For calendar years 2008 through 2011, Georgia underreported the Federal share of its
 Medicaid collections to be refunded to the Federal Government by $10,915,180.

WHY WE DID THIS REVIEW

The Federal Government pays its share of a State’s medical assistance costs under the Medicaid
program on the basis of the Federal medical assistance percentage (FMAP), which varies
depending on the State’s relative per capita income. Previous Office of Inspector General
reviews have shown that States did not always report collections properly or refund the Federal
share at the appropriate FMAP.

The objective of our audit was to determine whether the Georgia Department of Community
Health (State agency) accurately reported Medicaid collections for calendar years (CYs) 2008
through 2011.

BACKGROUND

Title XIX of the Social Security Act (the Act) established the Medicaid program to provide
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly administer and fund the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In Georgia, the State agency administers
the Medicaid program.

The FMAP varies depending on the State’s relative per capita income. Although FMAPs are
adjusted annually for economic changes in the States, Congress may increase FMAPs at any
time.

States claim Medicaid expenditures and the associated Federal share on the Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program (CMS-64). The CMS-64 shows
the disposition of Medicaid funds used to pay for medical and administrative costs for the quarter
being reported and any prior-period adjustments.

To account for overpayments, refunds, and similar receipts, States report collections on the
CMS-64. Collections decrease both the total expenditures reported for a quarter and the amount
of Federal funding that States receive. If collections are underreported, the Federal share for the
quarter will be higher than it should be. Conversely, overreporting collections results in a lower
Federal share.




Georgia Medicaid Collections (A-04-12-00085)                                                          i
WHAT WE FOUND

For CYs 2008 through 2011, the State agency did not always accurately report Medicaid
collections on its CMS-64s. Of about $396 million in total collections, the State agency
accurately reported and refunded the Federal share on about $20 million; however, it did not
accurately report or refund the Federal share on about $376 million. Generally, the State agency
did not refund the correct Federal share because it did not maintain adequate documentation
supporting the specific-period FMAPs used to calculate the Federal share of collections. As a
result, the State agency underreported $10,915,180 (Federal share) of collections to be refunded
to the Federal Government.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $10,915,180 to the Federal Government and

    •   develop and implement internal controls to ensure that it adequately supports specific-
        period FMAPs used to calculate the Federal share of collections refunded.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency concurred with our second
recommendation and described corrective actions that it planned to take. However, it did not
concur with our first recommendation and maintained that it had provided us with cost settlement
documentation that warranted adjustment of the recommended refund amount. The State agency
also requested details regarding which cost settlement refunds remained at the amount claimed
on the CMS-64s and which cost settlement refunds required an FMAP adjustment.

We maintain that Georgia underreported the Federal share of its Medicaid collections to be
refunded to the Federal Government. The State agency’s documentation did not support the
specific-period FMAPs used to calculate the Federal share of about $376 million in collections.
As requested, we provided the State agency with documentation detailing our treatment of each
collection (including cost settlement refunds) and identifying those requiring an FMAP
adjustment. However, we continue to recommend that the State agency refund $10,915,180 to
the Federal Government.




Georgia Medicaid Collections (A-04-12-00085)                                                      ii
                                                    TABLE OF CONTENTS


INTRODUCTION ....................................................................................................................1

           WHY WE DID THIS REVIEW ...................................................................................1

           OBJECTIVE .................................................................................................................1

           BACKGROUND ..........................................................................................................1
               The Medicaid Program: How It Is Administered and How States
                Claim Federal Reimbursement for Expenditures ...........................................1
               Georgia Department of Community Health ......................................................2

           HOW WE CONDUCTED THIS REVIEW ..................................................................3

FINDING ..................................................................................................................................3

           FEDERAL SHARE INACCURATELY REPORTED FOR COLLECTIONS ..........3

RECOMMENDATIONS ..........................................................................................................5

STATE AGENCY COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................5

APPENDIXES

           A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS ........................... 6

           B: AUDIT SCOPE AND METHODOLOGY ............................................................. 7

           C: FEDERAL REQUIREMENTS .............................................................................. 9

           D: STATE AGENCY COMMENTS .......................................................................... 10




Georgia Medicaid Collections (A-04-12-00085)                                                                                                  iii
                                            INTRODUCTION

WHY WE DID THIS REVIEW

The Federal Government pays its share of a State’s medical assistance costs under the Medicaid
program on the basis of the Federal medical assistance percentage (FMAP), which varies
depending on the State’s relative per capita income. Previous Office of Inspector General (OIG)
reviews have shown that States did not always report collections properly or refund the Federal
share at the appropriate FMAP (Appendix A).

OBJECTIVE

The objective of our audit was to determine whether the Georgia Department of Community
Health (State agency) accurately reported Medicaid collections for calendar years (CYs) 2008
through 2011.

BACKGROUND

The Medicaid Program: How It Is Administered and How States Claim
Federal Reimbursement for Expenditures

Title XIX of the Social Security Act (the Act) established the Medicaid program to provide
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly administer and fund the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In Georgia, the State agency administers
the Medicaid program.

The Federal Government pays its share of a State’s medical assistance costs under Medicaid on
the basis of the FMAP, which varies depending on the State’s relative per capita income
(section 1905(b) of the Act). States with a lower per capita income relative to the national
average are reimbursed a greater share of their costs. States with a higher per capita income are
reimbursed a lesser share. For CYs 2008 through 2011, Georgia’s FMAP ranged from
63.10 percent to 75.16 percent. Although FMAPs are adjusted annually for economic changes in
the States, Congress may increase FMAPs at any time. 1

The States claim Medicaid expenditures and the associated Federal share on the Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program (CMS-64). The
CMS-64 shows the disposition of Medicaid funds used to pay for medical and administrative
costs for the quarter being reported and any prior-period adjustments. The amount claimed on

1
  For example, Congress passed the Recovery Act, which provided additional Federal funding based on temporary
increases in States’ FMAPs (P.L. No. 111-5, § 5000 (Feb. 17, 2009)).




Georgia Medicaid Collections (A-04-12-00085)                                                                    1
the CMS-64 is a summation of expenditures derived from source documents, such as claims,
invoices, cost reports, and eligibility records.

To account for overpayments, refunds, and similar receipts, States report collections on the
CMS-64. Collections decrease both the total expenditures reported for a quarter and the amount
of Federal funding that States receive. If collections are underreported, the Federal share for the
quarter will be higher than it should be. Conversely, overreporting collections results in a lower
Federal share.

Georgia Department of Community Health

At the end of each quarter, a State agency official used a State-generated general ledger
combined detail report to identify collections to be reported on the CMS-64. This detail report
captured the current and prior-year collections and grouped them by source with their respective
State and Federal share. Among other things, it included collections related to third-party
liability (TPL) sources, 2 Medicaid provider cost settlements, and program integrity (PI) efforts. 3

As shown on the following graph, the State agency reported collections totaling about
$396.4 million ($260.6 million Federal share) on its CMS-64s for CYs 2008 through 2011. 4

                       Collections and Federal Share Reported on the CMS-64s ($ Million)
            $250
            $200                              $182.6

            $150                                       $118.1
                         $93.1
            $100                                                   $63.0
                                 $58.4                                                    $57.7
                                                                             $43.6                  $40.5
              $50
               $0
                           CY 2008              CY 2009               CY 2010               CY 2011
                                  Total Collections ($396.4)               Federal Share ($260.6)




2
 TPL sources included collections from the Health Insurance Premium Payment program, Children’s Health
Insurance Program Re-Authorization Act, Casualty program, Estate Recovery program, Credit Balance Audits,
Provider Recoupment and Billing, and Trust Operations.
3
    The purpose of PI efforts is to guard against fraud, abuse, and deliberate waste of Medicaid program benefits.
4
 For CYs 2008 through 2011, the State agency reported Medicaid collections totaling $401,479,193 on its
CMS-64s, of which CMS had already approved $5,112,567 in adjustments. We reviewed the remaining
$396,366,626 ($260,634,749 Federal share).




Georgia Medicaid Collections (A-04-12-00085)                                                                         2
HOW WE CONDUCTED THIS REVIEW

We limited our review to Medicaid collections reported on the State agency’s CMS-64s from
January 1, 2008, through December 31, 2011. We reviewed these collection amounts and
supporting documentation to determine whether the State agency adequately supported specific-
period FMAPs used to calculate the Federal share of collections refunded on the CMS-64s.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology, and Appendix C contains
Federal requirements.

                                               FINDING

For CYs 2008 through 2011, the State agency did not always accurately report Medicaid
collections on its CMS-64s. Of about $396 million in total collections, the State agency
accurately reported and refunded the Federal share on about $20 million; however, it did not
accurately report or refund the Federal share on about $376 million. Generally, the State agency
did not refund the correct Federal share because it did not maintain adequate documentation
supporting the specific-period FMAPs used to calculate the Federal share of collections. As a
result, the State agency underreported $10,915,180 (Federal share) of collections to be refunded
to the Federal Government.

FEDERAL SHARE INACCURATELY REPORTED FOR COLLECTIONS

CMS reimburses each State at the FMAP for the quarter in which the expenditure was made
(section 1903(a)(1) of the Act). According to section 2500.1(B) of the CMS State Medicaid
Manual (the Manual), the State agency must report an overpayment or other collection on the
CMS-64 report for the quarter in which the recovery is made and must compute the Federal share
of collections at the Federal matching rate at which CMS matched the original expenditure.

When a State cannot relate the recovery to a specific time period (e.g., the State does not operate
a recordkeeping system that documents the original FMAP), section 2500.6(B) of the Manual
instructs the State to compute the Federal share at the FMAP in effect at the time the refund is
collected and reported (current FMAP).
Section 2500(A)(1) of the Manual states that documentation supporting the amounts reported on
the CMS-64 report must be in readily reviewable form and available immediately at the time the
claim is filed. In addition, section 2500.1(B) of the Manual requires that the State agency make
available supporting documentation for certain types of collections upon request.




Georgia Medicaid Collections (A-04-12-00085)                                                       3
For CYs 2008 through 2011, the State agency applied specific-period FMAPs 5 to all
$396 million in collections when calculating the Federal share to be refunded to the Federal
Government. However, for about $376 million in collections, the State agency did not maintain
adequate support to relate the collections to specific periods and FMAPs at which the original
expenditures were matched by the Federal Government. Therefore, in accordance with Federal
requirements, the State agency should have computed the Federal share to be refunded at the
current FMAP for these collections.

Using the current FMAP, we calculated an underreported Federal share of $10,915,180 of
collections to be refunded to the Federal Government. (See the table below.)

                                  Table: Underreported Federal Share

                                    Federal Share
                                    Per the State         Federal Share Underreported
                     Period            Agency 6             Per OIG 7   Federal Share
                    CY 2008          $58,448,118           $59,404,912    $956,794
                    CY 2009          118,106,110           125,723,753    7,617,643
                    CY 2010           43,574,154            46,887,487    3,313,333
                    CY 2011           40,506,367            39,533,777    (972,590)
                     Total          $260,634,749          $271,549,929   $10,915,180

The State agency did not maintain adequate documentation supporting the specific-period
FMAPs that it used to calculate the Federal share of collections refunded. The State agency
grouped collections into project codes to identify the specific-period FMAPs at which original
expenditures were matched by the Federal Government. For the majority of these collections,
the State agency did not maintain adequate documentation to relate the collections to the specific
periods and FMAPs used to determine the Federal share to be refunded.

According to State agency officials, tracing the project codes to TPL invoices, bank statements,
or other source documentation was not practical because the information was too voluminous or
not readily available, and the process was too complicated.




5
    The specific-period FMAPs were generally lower than the current FMAPs.
6
 The State agency used specific-period FMAPs when calculating the Federal share of total collections totaling
$396,366,626 ($260,634,749 Federal share).
7
  We used the current FMAPs when calculating the Federal share of collections totaling $375,777,264
($271,549,929 Federal share) for which the State agency did not adequately support the specific-period FMAPs
used. The State agency adequately supported the specific-period FMAPs used to calculate the Federal share of the
remaining collections totaling $20,589,362.



Georgia Medicaid Collections (A-04-12-00085)                                                                       4
                                      RECOMMENDATIONS

We recommend that the State agency:

    •   refund $10,915,180 to the Federal Government and

    •   develop and implement internal controls to ensure that it adequately supports specific-
        period FMAPs used to calculate the Federal share of collections refunded.

                            STATE AGENCY COMMENTS AND
                       OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency concurred with our second
recommendation and described corrective actions that it planned to take. However, it did not
concur with our first recommendation and maintained that it had provided us with cost settlement
documentation that warranted adjustment of the recommended refund amount. The State agency
also requested details regarding which cost settlement refunds remained at the amount claimed
on the CMS-64s and which cost settlement refunds required an FMAP adjustment.

We maintain that Georgia underreported the Federal share of its Medicaid collections to be
refunded to the Federal Government. The State agency’s documentation did not support the
specific-period FMAPs used to calculate the Federal share of about $376 million in collections.
As requested, we provided the State agency with documentation detailing our treatment of each
collection (including cost settlement refunds) and identifying those requiring an FMAP
adjustment. However, we continue to recommend that the State agency refund $10,915,180 to
the Federal Government.

The State agency’s comments are included in their entirety as Appendix D.




Georgia Medicaid Collections (A-04-12-00085)                                                      5
         APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                          Report Title                  Report Number   Date Issued

   Delaware Did Not Comply With Federal Requirements    A-03-11-00203     6/28/12
   To Report All Medicaid Overpayment Collections
   States Inappropriately Retained Federal Funds for    A-06-11-00064     6/22/12
   Medicaid Collections for the First Recovery Act
   Quarter
   Review of Oklahoma Collections for the Medical       A-06-10-00057     1/5/12
   Assistance Program for Calendar Years 2004 Through
   2009




Georgia Medicaid Collections (A-04-12-00085)                                          6
                   APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered Medicaid collections totaling $396,366,626 ($260,634,749 Federal share)
reported on the CMS-64s for the 4-year period January 1, 2008, through December 31, 2011.

We limited our review to documentation supporting the collections reported on the CMS-64s and
the methodologies that the State agency used to calculate the Federal share of collections. We
did not review the overall internal control structure of the State agency or the Medicaid program.
Rather, we limited our internal control review to the objective of our audit.

We conducted fieldwork at the State agency offices in Atlanta, Georgia, from May 2012 through
April 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal requirements and applicable sections of the Manual;

    •   interviewed CMS officials responsible for identifying and monitoring Medicaid
        collections and the Federal share;

    •   interviewed State agency officials to gain an understanding of its procedures for
        identifying and reporting collections on the CMS-64s;

    •   interviewed the TPL contractor to gain an understanding of its collection efforts and how
        collections were reported to the State agency;

    •   judgmentally selected one quarter in each CY to gain an understanding of the collections
        identification and reporting process and the type of support used to prepare the CMS-64;

    •   obtained and analyzed quarterly CMS-64s for CYs 2008 through 2011 along with
        supporting documentation;

    •   reviewed Medicaid collections totaling $396,366,626 ($260,634,749 Federal share)
        reported during our audit period on the CMS-64s;

    •   analyzed TPL invoices and reports, financial reports, PI reports, bank statements, general
        ledger transactions, cost settlement receipts, and revenue reports to determine the
        completeness and the accuracy of collections;

    •   attempted to reconcile collections reported on the general ledger reports to the TPL
        invoices and reports, financial reports, PI reports, bank statements, and revenue reports;




Georgia Medicaid Collections (A-04-12-00085)                                                         7
    •   calculated, using the current FMAP for each quarter, the additional Federal share for all
        identified collections reported on the general ledger report in accordance with the
        Manual; and

    •   summarized our findings and discussed our results with CMS and State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Georgia Medicaid Collections (A-04-12-00085)                                                        8
                         APPENDIX C: FEDERAL REQUIREMENTS

FEDERAL REQUIREMENTS FOR REPORTING AND REFUNDING
MEDICAID COLLECTIONS

CMS reimburses each State at the FMAP for the quarter in which the expenditure was made
(section 1903(a)(1) of the Act). According to section 2500.1(B) of the Manual, the State agency
must report an overpayment or other collection on the CMS-64 report for the quarter in which
the recovery is made and must compute the Federal share of collections at the Federal matching
rate at which CMS matched the original expenditure.

When a State recovers a prior expenditure, it refunds the Federal share by reporting the recovery
on the CMS-64 at the FMAP used to calculate the amount it originally had received. The
Manual, section 2500.6(B), instructs States to:

        determine the date or period of the expenditure for which the refund is made to
        establish the FMAP at which the original expenditure was matched by the Federal
        government. Make refunds of the Federal share at the FMAP for which you were
        reimbursed. When recoveries cannot be related to a specific period, compute the
        Federal share at the FMAP rate in effect at the time the refund was received.

Section 2500(A)(1) of the Manual states, “the amounts reported on Form [CMS-64] and its
attachments must be actual expenditures for which all supporting documentation, in readily
reviewable form, has been compiled and is available immediately at the time the claim is filed.”

Section 2500.1(B) of the Manual requires that the State agency make available supporting
documentation for certain types of collections upon request.




Georgia Medicaid Collections (A-04-12-00085)                                                       9
                                APPENDIX D: STATE AGENCY COMMENTS




     0           GEORGIA DEPARTMENT 

                 OF COMMUNITY HEALTH 





      Nathan Deal, Governor                                                        Clyde L. Reese Ill, Esq., Commissioner

                 2 Peachtree Street. NW 1 Atlanta, GA 30303-3159 1 404-656-4507 I www.dch.georgla.gov


                                                         February II, 2014


             Response to Report Number: A-04-12-00085

            Ms. Lori S. Pilcher
            Regional Inspector Genera l for Audit Services
            Departmeni of Health and Huma n Services
            Office of Inspector General
            Office of Audit Services, Region rv
            61 Forsyth Street, SW, Suite 3T41
            Atlanta, GA 30303

            Dear Ms. Pilcher:

            The Georgia Department of Community Health's (DCH) response to the draft report entitled Georgia Did
            Not Always Accurate~v Report and Refumlthc: Federal Slwrc: ofMedicaid Col/c:<.tionsfiJr Calendar Years
            2008 Through 2011 is provided below.

            The report's conclusion in, WHAT WE FOUND, stales that"For CY.f 2008tllrougi120//, tile State agenq
            did not always accurately report Medicaid collections on its CMS-64s. Ofabout $396 million in total
            collections, tile State agency accurately reported and r~{imded the Federal share on about $20 million;
            howel'er, it did not accurately report or refund the Federal share on about $376 million. Generally, the
            Stale agency did not refund the correct Federal share because it did not maintain adequate documentation
            l'llpporting the specific-period FMAPs used to calculate the Federal share ofcollections. As a result, the
            stale agency underreported $/lJ,91.5,/80 in Federal share ofcollections to be refimded to the Federal
            Government. "

            In response to the above finding, in WHAT WE RECOMMEND, the report contains two
            recommendat ions.

                    Recommendation 1: 

                    Refund $10,915,180 to the Federal Government. 


                    DCH Response: 

                    The Department ofCommunity Health (DCH) does not concur with the recommendation. 

                    Supporting documentation in the amount of $7,546,488.19 for cost settlements claimed on the CMS 

                    64 report was provided to the Department of Health and Human Services (DHHS), Office of 

                    Inspector General (OIG). Based on the support ing documentation provided, the refund amount 

                    requested in the recommendat ion should be adjusted accord ingly. 





      Health Information Technology 1 Healthcare Facility Regulation 1 Medical Assistance Plans I State Health Benefit Plan
                                                      Equal Opportunity Employer




Georgia .Medicaid Collections (A-04-12-00085)                                                                                 10
             Re: DHHS-OIG Report A-04-1 2-00085·2 II 14                                                     Page:2
             Date: f-ebruary II , 2014

             We arc aware that some of the claims were disallowed but we have not been provided any explanation as to
             what the OIG disallowed to validate the report's finding. We would like to request details on which cost
             settlement refunds remained at the amount we claimed on the CMS 64 report and which cost settlements
             required an FMAJ> adjustment.

             Rcc:ommcndntion 2:
             Develop and implement internal controls to ensure thut it adcqua1cly supports specific-period FMAPs used to 

             calculate the Federal share ofcollections refunded. 


             DCII Response: 

             DCH concurs with the recommendation. DCH will estahlish a report which identifies all collections by 

             project and cash rt."Ccipts. The report will allow users the ability to match the cash receipts applied to the 

             related transactions with the appropriate FMAP. 


             We look lorward to working with you and your staff to ensure that DCH complies with all Federal 

             regulations. 



                                                            Sincerely,




                                                            Timothy A. Connell
                                                            Chief Financial Officer




            Cc: Clyde L. Reese III, Esq., Commissioner
                Gerlda Hines




      Health lnformat.ion Technology 1 Healthcare Facility Regulation 1 Medical Ass;stance Plans 1 State Health Benefit Plan
                                                         Equal Opportunity Employer




Georgia .Medicaid Collections (A-04-12-00085)                                                                                   11
